                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION
Office of Inspector General—Office of Audit




                                              KINGSTON-NEWBURGH ENTERPRISE
                                              CORPORATION EARMARK GRANTS




                                                                  Date Issued: March 12, 2007
                                                                  Report Number: 02-07-201-03-390
Department of Labor                               MARCH 2007
Office of Inspector General
Office of Audit                                   KINGSTON-NEWBURGH ENTERPRISE
                                                  CORPORATION EARMARK GRANTS


BRIEFLY…                                          WHAT OIG FOUND

                                                  KNEC reported serving 1,210 participants and
Highlights of Report Number: 02-07-201-03-390,    grant costs of $1.7 million, of which $1.5 million
to the Assistant Secretary for Employment and     related to 27 training and employment contracts.
Training
                                                  Our audit found that:
WHY READ THE REPORT
                                                  1. KNEC could only identify 916 participants
Kingston-Newburgh Enterprise Corporation             served and could not provide documentation
(KNEC) was established with the mission to           to support eligibility for 685 participants. We
address revitalization of Enterprise Community       questioned $1.2 million of contract costs
zone neighborhoods in Kingston, New York, and        used for ineligible or undocumented
Newburgh, New York.                                  participants.

KNEC received three earmark grants awarded in     2. KNEC could not provide verifiable outcome
2001, 2002 and 2003 for a total award of $1.9        data for any of the 428 participants it
million. The purpose of the grants was to            claimed to have placed into employment.
provide training and employment services to 840
residents of the Enterprise Community zones in    3. KNEC did not have adequate policies and
Kingston and Newburgh.                               procedures for procurement and contract
                                                     administration.
WHY OIG DID THE AUDIT
                                                  WHAT OIG RECOMMENDED
The audit objectives were to determine the
following:                                        The OIG recommended the Assistant Secretary
                                                  for Employment and Training recover
1. Were KNEC’s participants eligible?             questioned costs of $1,201,110.

2. Were participants’ training and employment     In its response to the draft report, KNEC stated
   outcomes achieved?                             that it strongly disagreed with the report’s
                                                  findings and determinations.
3. Were reported costs allowable, allocable,
   and reasonable for the grants?

READ THE FULL REPORT

To view the report, including the scope,
methodology and full auditee response, go to:

http://www.oig.dol.gov/public/reports/oa/200
7/02-07-201-03-390.pdf
                                                                                                     KNEC Earmark Grants




Table of Contents
                                                                                                                          PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

     1. Questioned Costs of $1,201,110 for Ineligible or
        Undocumented Participants .............................................................................. 5

     2. Outcomes Were Not Reported or Verifiable ..................................................... 7

     3. KNEC’s Procurement and Contract Administration Systems
        Did Not Ensure Costs Were Reasonable and Allocable.................................. 8


EXHIBIT ........................................................................................................................ 11

     Schedule of Claimed Participants Enrolled, Claimed Costs, and
       Questioned Costs............................................................................................. 13


APPENDICES ............................................................................................................... 15

     A. Background....................................................................................................... 17

     B. Objectives, Scope, Methodology and Criteria................................................ 19

     C. Acronyms and Abbreviations.......................................................................... 23

     D. Auditee Response ............................................................................................ 25




U.S. Department of Labor – Office of Inspector General                                                                           1
Report Number: 02-06-201-03-390
KNEC Earmark Grants




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                  U.S. Department of Labor – Office of Inspector General
                                                       Report Number: 02-06-201-03-390
                                                                                                     KNEC Earmark Grants



Executive Summary
We conducted a performance audit of Kingston-Newburgh Enterprise Corporation’s
(KNEC) three earmark 1 grants awarded in 2001, 2002 and 2003 for a total award of
$1.9 million. The purpose of the grants was to provide training and employment
services to residents of the enterprise community (EC) zones in Kingston and
Newburgh, New York. Eligible residents were also to be enrolled in the Temporary
Assistance to Needy Families (TANF) or Workforce Investment Act (WIA) programs.

Our audit objectives were to determine the following:

       1. Were KNEC’s participants eligible?
       2. Were participants’ training and employment outcomes achieved?
       3. Were reported costs allowable, allocable, and reasonable for the grants?

Results

1. KNEC’s grants required it to serve 840 eligible Kingston and Newburgh EC zone
   residents who were TANF or WIA enrolled. KNEC reported serving 1,210
   participants, but could only identify 916 participants and could not explain the
   difference. Moreover, KNEC could not provide adequate documentation to support
   eligibility for 685 participants. KNEC did not establish policies and procedures to
   ensure participant eligibility, and did not properly retain participant records.
   Furthermore, KNEC awarded 27 contracts for participant training and employment
   services, but did not effectively monitor contractors to ensure grant funds were used
   only for the intended population. As a result, we question $1,201,110 in contract
   costs used for ineligible or undocumented participants.

            •    KNEC could not provide any participant documentation for 5 of 27 contracts,
                 for participant training and employment services, with total claimed costs of
                 $253,192. KNEC could not support whether eligible participants received
                 grant services from the contractors.

            •    For the 916 participants KNEC could identify, we found 685 (75 percent) were
                 either not eligible or had insufficient documentation to establish eligibility.
                 Contract costs incurred for these participants were $947,918.

2. Under the terms of the grants, KNEC agreed to place 428 participants (51 percent of
   planned participants). KNEC could not provide verifiable outcome data for any of its
   participants, because it did not have a system to document, track or report
   outcomes. In addition, KNEC was unable to obtain outcome data from its
   contractors.


1
    An earmark grant is awarded with funds set aside from an appropriation for a specific purpose.



U.S. Department of Labor – Office of Inspector General                                                                3
Report Number: 02-06-201-03-390
KNEC Earmark Grants


3. For the audit period, KNEC reported grant costs of $1,727,335 -- $1,493,223 in
   training and employment contracts and $234,112 for KNEC administration.
   However, KNEC did not have adequate policies and procedures for procurement
   and contract administration to ensure costs were reasonable and allocable to the
   grants under Federal requirements. KNEC operated as a small organization with
   one staff person, the President of KNEC, reporting directly to the Board of Directors.
   However, the President claimed to be unaware of Federal requirements for financial
   systems and operations. Moreover, KNEC’s Board of Directors did not provide
   adequate oversight of financial operations.

Auditee Response

In response to the draft report, KNEC stated that it strongly disagreed with the report’s
findings and determinations. KNEC claimed it had inherent flexibility in grant operations
under the provisions of “ETA-Reference Book One: Technical Assistance for Writing
Earmark Grant Proposals” and stated that ETA grant monitoring did not mention
significant problems with eligibility or documentation.

KNEC also provided additional documentation to support participant eligibility which was
not provided during fieldwork.

The KNEC response is included in its entirety in Appendix D.

OIG Conclusion

The “ETA-Reference Book One: Technical Assistance for Writing Earmark Grant
Proposals” cited by KNEC is a guide for developing grant proposals and does not take
precedence over requirements in executed grant agreements.

Based on the additional documentation of participant eligibility provided by KNEC,
questioned costs as presented in the draft report have been reduced by $167,652 to
$1,201,110.

Recommendation

We recommend the Assistant Secretary for Employment and Training recover
questioned costs of $1,201,110.

We are not making specific recommendations related to KNEC’s participant eligibility
and document retention systems for earmark grants because the grants have expired.
However, if ETA awards future grants to KNEC, ETA should first ensure that KNEC has
established adequate policies and procedures to ensure compliance with grant terms
and conditions, and with Federal requirements.




4                                      U.S. Department of Labor – Office of Inspector General
                                                           Report Number: 02-06-201-03-390
                                                                              KNEC Earmark Grants


U.S. Department of Labor                        Office of Inspector General
                                                Washington, DC 20210




                          Assistant Inspector General’s Report




Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U. S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

We conducted a performance audit of KNEC’s three earmark grants awarded in 2001,
2002 and 2003 for a total award of $1.9 million. The purpose of the grants was to
provide training and employment services to residents of the EC zones in Kingston and
Newburgh, New York. Eligible residents were also to be enrolled in TANF or WIA.

Our audit objectives were to determine the following:

   1. Were KNEC’s participants eligible?
   2. Were participants’ training and employment outcomes achieved?
   3. Were reported costs allowable, allocable, and reasonable for the grants?

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our objectives, scope, methodology and criteria are
detailed in Appendix B.


Objective 1 – Were KNEC’s Participants Eligible?

Results and Findings – Questioned Costs of $1,201,110 for Ineligible or
Undocumented Participants

Office of Management and Budget (OMB) Circular A-122, Attachment A, Paragraphs
A.2 and A.3, state that to be allowable, costs must be adequately documented and
reasonable under grant terms and conditions. KNEC’s grants required it to serve 840
eligible Kingston and Newburgh EC zone residents who were TANF or WIA enrolled.

KNEC reported serving 1,210 participants, but could only identify 916 participants and
could not explain the difference. Moreover, KNEC could not provide adequate
documentation to support eligibility for 685 participants. KNEC did not establish policies

U.S. Department of Labor – Office of Inspector General                                         5
Report Number: 02-06-201-03-390
KNEC Earmark Grants


and procedures to ensure participant eligibility, and did not properly retain participant
records. Furthermore, KNEC awarded 27 contracts for participant training and
employment services, but did not effectively monitor contractors to ensure grant funds
were used only for the intended population. As a result, we question $1,201,110 in
contract costs used for ineligible or undocumented participants, as detailed below and in
the Exhibit on page 13.

    a. Contracts Without Documented Participants ($253,192 questioned)

KNEC could not provide any participant documentation for 5 contracts with total claimed
costs of $253,192. For the contracts, KNEC could not support whether eligible
participants received grant services. Therefore, we question $253,192 for 5 contracts
without documented participants.

    b. 490 Participants Were Not EC Zone Residents ($742,925 questioned)

Out of 916 participants, 490 were not residents of the Kingston or Newburgh EC zones.
The EC zones were defined in the grants as Kingston census tracts 9517 and 9520, and
Newburgh census tracts 4 and 5. Residency was determined by identifying the census
tract containing the participant’s address and comparing it to the EC zone census
tracts. 2 We identified 490 participants who were not residents of the EC zones and, as
a result, question $742,925 of contract costs used for non-residents.

    c. 70 EC Zone Residents Were Undocumented ($50,772 questioned)

Participant documentation was not provided for two contractors: the Hodge Center and
Riverview Community Development Corporation. For the Hodge Center, KNEC officials
stated all participant records were destroyed when its project coordinator left. For the
Riverview Community Development Corporation, KNEC officials were unable to locate
participant records. Title 29, Part 95.53(b) of the Code of Federal Regulations (CFR)
requires documents be retained at least 3 years from submission of the final cost report.
KNEC provided participant lists which were used for residency tests and 70 participants
were found to be EC zone residents. However, KNEC could not document that the 70
residents were enrolled in TANF or WIA, and received grant-funded services. As a
result, we question $50,772 of contract costs used for the 70 residents for whom KNEC
could not provide documentation of enrollment in TANF or WIA, and the receipt of grant
funded services.

    d. 125 EC Zone Residents Were Not TANF or WIA Enrolled ($154,221 questioned)

KNEC had 356 participants who were EC zone residents, excluding the 70 Hodge
Center and Riverview Community Development Corporation residents. There were 125
participants who were ineligible because they were not TANF or WIA enrolled. We
question contract costs of $154,221 for participants not enrolled in TANF or WIA.



2
 Census tracts for participant addresses were identified using the address search feature on the U.S. Census Bureau’s Census
2000 website http://www.census.gov/main/www/cen2000.html.


6                                                        U.S. Department of Labor – Office of Inspector General
                                                                             Report Number: 02-06-201-03-390
                                                                     KNEC Earmark Grants


Auditee Response

In response to the draft report, KNEC stated that it strongly disagreed with the report’s
findings and determinations. KNEC claimed it had inherent flexibility in grant operations
under the provisions of “ETA-Reference Book One: Technical Assistance for Writing
Earmark Grant Proposals” and stated that ETA grant monitoring did not mention
significant problems with eligibility or documentation.

KNEC also provided additional documentation to support participant eligibility which was
not provided during fieldwork.

OIG Conclusion

The “ETA-Reference Book One: Technical Assistance for Writing Earmark Grant
Proposals” cited by KNEC is a guide for developing grant proposals and does not take
precedence over requirements in executed grant agreements. ETA grant monitoring
was outside the scope of the audit.

Based on the additional documentation of participant eligibility provided by KNEC,
questioned costs as presented in the draft report have been reduced by $167,652 to
$1,201,110.

Recommendation

We recommend the Assistant Secretary for Employment and Training recover
questioned costs of $1,201,110.

We are not making specific recommendations related to KNEC’s participant eligibility
and document retention systems for the earmark grants because the grants have
expired. However, if ETA awards future grants to KNEC, ETA should first ensure that
KNEC has established adequate policies and procedures to ensure compliance with
grant terms and conditions, and with Federal requirements.


Objective 2 – Were Participants’ Training and Employment Outcomes Achieved?

Results and Finding – Outcomes Were Not Reported or Verifiable

Under the terms of the grants, KNEC agreed to place 428 participants (51 percent of
840 planned enrollments). KNEC could not provide verifiable outcome data, because it
did not document, track or report grant outcomes. In addition, KNEC was unable to
obtain outcome data from its contractors. KNEC’s President stated that, had she been
aware of Federal requirements, she would have kept better records.




U.S. Department of Labor – Office of Inspector General                                  7
Report Number: 02-06-201-03-390
KNEC Earmark Grants


Auditee Response

KNEC’s response to the draft report did not address this finding.

OIG Conclusion

We are not making specific recommendations related to outcomes for the earmark
grants because the grants have expired. However, if ETA awards future grants to
KNEC, ETA should first ensure that KNEC has established adequate policies and
procedures to ensure compliance with grant terms and conditions, and with Federal
requirements.


Objective 3 – Were Reported Costs Allowable, Allocable and Reasonable for the
Grants?

Results and Findings – KNEC’s Procurement and Contract Administration
Systems Did Not Ensure Costs Were Reasonable and Allocable

29 CFR 95.21(b)(3) requires grantee financial systems to provide: “Effective control
over and accountability for all funds, property and other assets. . . .” For the audit
period, KNEC reported grant costs of $1,727,335 -- $1,493,223 for training and
employment services contracts and $234,112 for administration. However, KNEC did
not have adequate policies and procedures for procurement and contract administration
to ensure costs were reasonable and allocable to the grants under Federal
requirements.

KNEC operated as a small organization with one staff person, the President of KNEC,
reporting directly to the Board of Directors. However, the President claimed to be
unaware of Federal requirements for financial systems and operations. Moreover, the
Board of Directors did not provide adequate oversight of financial operations. In the
Single Audits for Fiscal Years ending December 31, 2002 and 2003, the reports on
internal controls include comments that the Board of Directors be involved in KNEC’s
financial affairs to provide oversight and independent review. The Board of Directors
hired an accounting consultant to monitor KNEC’s financial systems and instruct the
President on her fiscal responsibilities. KNEC’s President stated the most recent
monitoring by the consultant occurred prior to April 2003 and was not documented.

    a. Noncompetitive and Undocumented Procurement

29 CFR 95.43 states: “All procurement transactions shall be conducted in a manner to
provide, to the maximum extent practical, open and free competition.” 29 CFR 95.46
requires procurement records include: (a) basis for contractor selection, (b) justification
for noncompetitive procurement, and (c) basis for award cost or price.

KNEC awarded 27 contracts without competition and did not document the procurement
process. KNEC’s President believed the executed contract was sufficient, stand-alone

8                                        U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 02-06-201-03-390
                                                                    KNEC Earmark Grants


documentation for procurement, and did not prepare or retain other procurement
documentation. KNEC’s single audit reports also noted the lack of competitive
procurement and recommended KNEC comply with Federal requirements.

KNEC’s President agreed with our findings. She stated contracts under the first grant
were awarded before she joined KNEC, and she could not explain the basis for
selection. Contracts under the other two grants were awarded to existing contractors.

   b. Inadequate Contract Administration

OMB Circular A-122, Attachment A, Paragraph A2 states that to be allowable, costs
must be reasonable for the grant and adequately documented. Under 29 CFR 95.51(a),
grantees are required to monitor contractors and each activity supported by the grant.
29 CFR 95.47 further requires:

       A system for contract administration shall be maintained to ensure
       contractor conformance with the terms, conditions and specifications of
       the contract and to ensure adequate and timely follow up of all purchases.
       Recipients shall evaluate contractor performance and document, as
       appropriate, whether contractors have met the terms, conditions and
       specifications of the contract.

KNEC did not establish an adequate contract administration system with policies and
procedures. Moreover, KNEC did not conduct fiscal monitoring of contractors or ensure
contract costs were adequately supported. KNEC’s President stated that, had she been
aware of Federal requirements, she would have kept better records of contract costs.
As a result, contractors were paid in excess of contract amounts without modifying the
contract, and contract costs were charged to the wrong grant or were not adequately
supported. Questioned costs related to contract administration have not been
quantified because contract costs were questioned under Objective 1.

Auditee Response

KNEC’s response to the draft report did not address this finding.

OIG Conclusion

We are not making specific recommendations related to KNEC’s financial and contract
administration systems for the earmark grants because the grants have expired.
However, if ETA awards future grants to KNEC, ETA should first ensure that KNEC has
established adequate policies and procedures to ensure compliance with grant terms
and conditions, and with Federal requirements.




Elliot P. Lewis
November 20, 2006

U.S. Department of Labor – Office of Inspector General                                  9
Report Number: 02-06-201-03-390
KNEC Earmark Grants




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




10                                 U.S. Department of Labor – Office of Inspector General
                                                       Report Number: 02-06-201-03-390
                                                         KNEC Earmark Grants




Exhibit




U.S. Department of Labor – Office of Inspector General                   11
Report Number: 02-06-201-03-390
KNEC Earmark Grants




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                 U.S. Department of Labor – Office of Inspector General
                                                       Report Number: 02-06-201-03-390
                                                                                                                                 KNEC Earmark Grants


                                                                                            EXHIBIT
                               Kingston-Newburgh Enterprise Corporation
             Schedule of Claimed Participants Enrolled, Claimed Costs and Questioned Costs 3
                            For the Period May 1, 2001 through March 31, 2005


                                                                                                            Questioned Costs
                                                                                Contracts    Participants    Undocumented                Residents
                                                Claimed                        Without       Not EC Zone           EC Zone           Not Enrolled        Total
                                              Participants       Claimed    Participants      Residents           Residents          in TANF/WIA       Questioned
                                                Enrolled          Costs     (finding 1a)     (finding 1b)        (finding 1c)        (finding 1d)        Costs


Grant 1 (No.AF-11361-01-60)

Adminstrative Costs (KNEC)                         ---       $     97,379          ---            ---                ---                    ---            ---

Training and Employment Contract Costs:
  Arden Hill Senior Health Systems                 ---       $          0          ---            ---                ---                    ---            ---
  Best Resources - Contract 1                         34           80,306          ---       $     18,896            ---             $       37,791    $   56,687
  Best Resources - Contract 2                         13           53,500          ---             24,692            ---                     12,346        37,038
  Family of Woodstock - Contract 1                    30            9,979          ---              9,979            ---                    ---              9,979
  Hodge Center - Contract 1                          128           21,900          ---             16,083    $             5,817            ---            21,900
  NEED Quickstart                                     22           38,888          ---             15,909            ---                      17,676        33,585
  Orange County OET - Contract 1                      31           45,841          ---             16,266            ---                           0        16,266
  Orange County OET - Contract 2                      40           73,303          ---             23,823            ---                           0        23,823
  Riverview Comm. Dvlpt Corp. - Contract 1            16           86,400          ---             86,400                        0          ---             86,400
  St. Georges Church - Contract 1                      0            3,800   $        3,800        ---                ---                    ---              3,800
  St. Georges Church - Contract 2                      0            1,964            1,964        ---                ---                    ---              1,964
  UCCC Nurses - Contract 1                            12           90,580          ---             90,580            ---                    ---             90,580
  Ulster County BOCES                                 28           26,160          ---              6,540            ---                    ---              6,540
  Ulster County OET                                   29           65,000          ---             33,621            ---                    ---             33,621
    Total Grant 1                                    383     $    695,000   $        5,764   $   342,789     $             5,817     $       67,813    $   422,183


Grant 2 (No. AF-12262-02-60)
Adminstrative Costs (KNEC)                         ---       $     86,537          ---            ---                ---                    ---            ---
Training and Employment Contract Costs:
  Best Resources - Contract 3                         236    $    120,000          ---       $     45,763            ---             $       27,458    $    73,221
  Best Resources - Contract 4                      ---             80,000          ---             30,508            ---                     18,305         48,813
  Family of Woodstock - Contract 2                     32           8,101          ---              8,101            ---                    ---               8,101
  Hodge Center - Contract 2                            39          27,843          ---             19,276    $           8,567              ---             27,843
  Hodge Center - Contract 3                            33           6,800          ---              5,770                1,030              ---               6,800
  Riverview Comm. Dvlpt. Corp. - Contract 2            57         106,073          ---             70,715              35,358               ---            106,073
  St. Georges Church - Contract 3                       0           3,450   $        3,450        ---                ---                    ---               3,450
  St. Lukes Hospital                                    0         150,000         150,000         ---                ---                    ---            150,000
  UCCC Health Choices 2010                         ---                  0          ---            ---                ---                    ---             ---
  UCCC Nurses - Contract 2                             12         170,593          ---           170,593             ---                    ---            170,593
  Ulster Literacy Association                      ---                  0          ---            ---                ---                    ---             ---
    Total Grant 2                                    409     $    759,397   $     153,450    $   350,726     $        44,955         $       45,763    $   594,894


Grant 3 (No. AF-13709-04-60)
Adminstrative Costs (KNEC)                         ---       $     50,195          ---            ---                ---                    ---            ---
Training and Employment Contract Costs:
  Best Resources - Contract 5                         124    $    120,000          ---       $     40,645            ---             $        40,645   $    81,290
  Family of Woodstock Grant 2 Contract 2           ---              8,765          ---              8,765            ---                    ---              8,765
  UCCC Nurses - Contract 3                              0          93,978   $       93,978        ---                ---                    ---             93,978
Total Grant 3                                        124     $    272,938   $      93,978    $    49,410     $               -       $       40,645    $   184,033

Total All Grants                                     916     $ 1,727,335    $     253,192    $   742,925     $        50,772         $      154,221    $ 1,201,110




3
 Questioned costs are calculated by contract as: the number of ineligible or undocumented participants multiplied by the average
cost per participant for the contract.



U.S. Department of Labor – Office of Inspector General                                                                                                           13
Report Number: 02-06-201-03-390
KNEC Earmark Grants




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                 U.S. Department of Labor – Office of Inspector General
                                                       Report Number: 02-06-201-03-390
                                                         KNEC Earmark Grants




Appendices




U.S. Department of Labor – Office of Inspector General                   15
Report Number: 02-06-201-03-390
KNEC Earmark Grants




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                 U.S. Department of Labor – Office of Inspector General
                                                       Report Number: 02-06-201-03-390
                                                                                                          KNEC Earmark Grants


                                                                                                                APPENDIX A
BACKGROUND

KNEC was established in 1995 as a not-for-profit, public benefit corporation with the
mission to address revitalization of EC zone neighborhoods in Kingston, New York, and
Newburgh, New York. KNEC’s EC zones were Kingston census tracts 9517 and 9520,
and Newburgh census tracts 4 and 5. 4 KNEC’s Corporate By-Laws mandated the
mayors of both cities serve as directors on the Board of Directors. Newburgh provided
rent-free office space for KNEC’s administration and to house its records.

KNEC received U.S. Department of Labor earmark grants in 2001, 2002 and 2003 to
provide training and employment services to targeted residents of the EC zones.

                                                                                     Award             Planned
                             Grant Number               Grant Period                Amounts           Participants
                    1        AF-11361-01-60           05/01/01–12/31/03              $695,000               230
                    2        AF-12262-02-60           06/01/02–03/31/05              $850,000               230
                    3        AF-13709-04-60           12/01/03–06/01/05              $397,400               380
                                 Totals                                            $1,942,400               840

The grants had two eligibility requirements – residency in the EC zones and enrollment
in programs either under TANF or WIA. TANF is a federally funded assistance program
providing cash assistance, job training, and other services to adults with dependent
children. Under WIA, job training and job search services are provided to adults, youth,
and dislocated workers. For the grants, KNEC was to enroll TANF and WIA residents of
the EC zones. Residents with greater need would receive services of assessment,
career counseling, development of an individual employment plan, linkages to
transportation and childcare, referral to training, General Equivalency Diploma
preparation, and English-as-a-Second Language.




4
    A census tract is a small subdivision of a county and includes an average of 4,000 inhabitants.



U.S. Department of Labor – Office of Inspector General                                                                    17
Report Number: 02-06-201-03-390
KNEC Earmark Grants




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                 U.S. Department of Labor – Office of Inspector General
                                                       Report Number: 02-06-201-03-390
                                                                                                     KNEC Earmark Grants


                                                                                                              APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

Our audit objectives were to determine the following:

     1. Were KNEC’s participants eligible?
     2. Were participants’ training and employment outcomes achieved?
     3. Were reported costs allowable, allocable, and reasonable for the grants?

Scope

We conducted our performance audit in accordance with Generally Accepted
Government Auditing Standards for performance audits. Fieldwork was conducted from
March 8, 2005, through June 9, 2005, at KNEC offices in Newburgh, and at contractor
locations in Goshen and Newburgh, New York. KNEC operated as a small organization
with one staff person, the President of KNEC, reporting directly to the Board of
Directors. Audit issues were discussed with KNEC’s President during fieldwork and,
when she resigned in May 2005, we provided a summary of audit issues to the Board of
Directors. An exit conference was held on November 21, 2006.

We audited three U.S. Department of Labor earmark grants (Grants 1, 2, and 3)
awarded to KNEC from the grants’ inception through to the latest reported costs.

                                                                                                 Reported
             Grant Number             Grant Period               Audit Period               Costs     Participants
       1     AF-11361-01-60         05/01/01–12/31/03          05/01/01–12/31/03          $695,000          420
       2     AF-12262-02-60         06/01/02–03/31/05          06/01/02–12/31/04          $759,397          654
       3     AF-13709-04-60         12/01/03–06/01/05          12/01/03–03/31/05           $272,938             5
                                                                                                            136
                 Totals                                                                  $1,727,335       1,210

From the U.S. Department of Labor’s Federal Project Officer and/or KNEC, we obtained
the grant agreements and modifications; Federal Project Officer’s monitoring reports;
Federal Financial Status Reports; and Quarterly Contractor/Grantee Status Forms.
From KNEC, we obtained transaction detail reports, Single Audit Reports, contracts,
contractor invoices and support documents, KNEC’s Certificate of Incorporation and
Corporate By-Laws, and participant lists. From Orange County Employment and
Training, we obtained participant TANF and WIA enrollment records. From Orange
County Employment and Training and Best Resource Center, we obtained KNEC
participant records. From Best Resource Center, we obtained contractor cost
information in support of sampled grant costs. Census tracts for participant addresses
were obtained from the U.S. Census Bureau’s Census 2000 website.


5
  Neither KNEC nor the Federal Project Officer provided the Grant 3 performance reports, so Grant 3 reported participants were
estimated at 136 by using participant lists and planning goals for contracts with reported costs as of March 31, 2005.



U.S. Department of Labor – Office of Inspector General                                                                           19
Report Number: 02-06-201-03-390
KNEC Earmark Grants


For the 916 participants identified by KNEC, we reviewed 100 percent of participant
eligibility. Also for Grant 2, we sampled 52 percent of contract costs and 21 percent of
administration costs. Costs from Grants 1 and 3 were not sampled because: (a) we
initiated the audit only for Grant 2 and expanded to Grants 1 and 3 due to significant
issues with eligibility; (b) there were no findings related to administration costs for
Grant 2; and (c) 80 percent of contract costs for the three grants were questioned for
participant eligibility issues.

Methodology

In planning and performing our audit, we considered internal controls of KNEC earmark
grants by obtaining an understanding of the program’s internal controls, determining
whether internal controls had been placed in operations, and assessing control risk in
order to determine our auditing procedures for the purpose of achieving our objectives.
The objective of our audit was not to provide assurance on the internal controls.
Consequently, we did not express an opinion on the internal controls as a whole, but
rather how they related to our objectives. Therefore, we evaluated the internal controls
as they pertained to grant participants’ eligibility, training and employment outcomes,
and whether reported costs were allowable, allocable and reasonable.

Our consideration of KNEC earmark grants internal controls would not necessarily
disclose all matters that might be reportable conditions. Because of inherent limitations
in internal controls, misstatements, losses, or noncompliance may nevertheless occur
and may not be detected.

We reviewed KNEC’s grant agreements and Federal Project Officer’s monitoring
reports; Federal Financial Status Reports (SF-269) and Quarterly Contractor/Grantee
Status Forms; transaction detail reports, Single Audit Reports; KNEC’s contracts,
contractor invoices, and support documents for invoices; and participant case files,
training rosters, and TANF and WIA enrollment documents. We reviewed KNEC’s
Certificate of Incorporation and Corporate By-Laws. We interviewed KNEC’s President
and the U.S. Department of Labor’s Federal Project Officer.

We conducted testing at two of KNEC’s large contractors -- Orange County
Employment and Training, and Best Resource Center. We interviewed current
personnel; examined participant records to support eligibility and services received; and
reviewed contractor cost information in support of sampled grant costs.

     a. Program Performance Internal Controls and Testing

        We found no controls over eligibility and material weaknesses in controls over
        performance data and document retention. As a result, we placed minimal
        reliance on controls and expanded eligibility tests to 100 percent of participants.
        Controls were assessed through discussions with KNEC’s president and
        contractor staff, and reviews of contracts, Quarterly Contractor/Grantee Status
        Forms, participant lists and files, and Census Bureau data for residency status.



20                                       U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 02-06-201-03-390
                                                                       KNEC Earmark Grants


       To determine whether the participants were enrolled in TANF or WIA when grant
       services were received, we selected 205 of the 356 EC zone resident
       participants (exclusive of the 70 from Hodge Center and Riverview Community
       Development Corporation) and reviewed Orange County Office of Employment
       and Training records.

   b. Financial Reporting Internal Controls and Testing

       We found material weaknesses in controls over contract management, but no
       material weaknesses for administrative costs. As a result, we placed minimal
       reliance on the allowability and allocability of incurred costs related to contracts,
       and moderate reliance for administrative costs. Controls were assessed through
       discussion with KNEC’s president and reviews of contracts, sampled Grant 2
       costs, and Single Audit Reports.

       We sampled KNEC’s Grant 2 contractor costs on a statistical basis and reviewed
       17 payments to contractors totaling $352,905 or 52 percent of total Grant 2
       contracts. For 8 of 17 payments totaling $211,379, we found the related
       contractor costs were not supported in KNEC’s or the contractors’ records. Since
       80 percent of contractor costs were already questioned as part of eligibility, we
       did not project the errors for this sample and did not expand sampling to contract
       costs incurred in Grants 1 and 3.

       We judgmentally selected 4 payments for administrative costs totaling $18,310
       (21 percent of total administrative expenses) based on the transaction amounts
       and the risk associated with having a single employee operation. We selected a
       payroll transaction for $16,796 and reviewed 12 weekly timesheets. We also
       selected 3 travel reimbursements totaling $1,514 and reviewed cost detail. We
       found no errors for this sample.

Criteria

We tested compliance with Federal requirements using the following criteria:

   •   WIA (Public Law 105–220; August 7, 1998)

   •   Executed grant agreements, as modified (AF-11361-01-60; AF-12262-02-60; and
       AF-13709-04-60)

   •   29 CFR 95, “Grants and Agreements with Institutions of Higher Education,
       Hospitals, and Other Non-Profit Organizations”

   •   OMB Circular A-122, “Cost Principles for Non-Profit Organizations”




U.S. Department of Labor – Office of Inspector General                                    21
Report Number: 02-06-201-03-390
KNEC Earmark Grants




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                 U.S. Department of Labor – Office of Inspector General
                                                       Report Number: 02-06-201-03-390
                                                                 KNEC Earmark Grants


                                                                      APPENDIX C
ACRONYMS AND ABBREVIATIONS


   CFR                Code of Federal Regulations

   EC zone            Enterprise Community Zone

   KNEC               Kingston-Newburgh Enterprise Corporation

   OIG                Office of Inspector General

   OMB                Office of Management and Budget

   TANF               Temporary Assistance to Needy Families

   WIA                Workforce Investment Act




U.S. Department of Labor – Office of Inspector General                           23
Report Number: 02-06-201-03-390
KNEC Earmark Grants




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                 U.S. Department of Labor – Office of Inspector General
                                                       Report Number: 02-06-201-03-390
                                                         KNEC Earmark Grants


                                                              APPENDIX D
AUDITEE RESPONSE TO DRAFT REPORT




U.S. Department of Labor – Office of Inspector General                   25
Report Number: 02-06-201-03-390
KNEC Earmark Grants




26                    U.S. Department of Labor – Office of Inspector General
                                          Report Number: 02-06-201-03-390
                                                         KNEC Earmark Grants




U.S. Department of Labor – Office of Inspector General                   27
Report Number: 02-06-201-03-390
